No. 20-6518

BLAINE MILAM
Petitioner,
V.

TEXAS
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO
THE TEXAS COURT OF CRIMINAL APPEALS

REPLY IN SUPPORT OF A PETITION FOR A WRIT OF
CERTIORARI
Mr. Milam is scheduled to be executed on January 21, 2021,
after 6:00 p.m.
Jason D. Hawkins
Federal Public Defender
Jeremy Schepers
Supervisor, Capital Habeas Unit
jeremy_schepers@fd.org
Northern District of Texas
525 S. Griffin Street, Suite 629
Dallas, TX 75202
214-767-2746
214-767-2286 (fax)

Jennae R. Swiergula*
Texas Defender Service
1023 Springdale Rd. #14E
Austin, TX 78721
512-320-8300
512-477-2153 (fax)
jswiergula@texasdefender.org
*Counsel of Record
Attorneys for Petitioner

TABLE OF CONTENTS
TABLE OF CONTENTS ................................................................................................ ii
TABLE OF AUTHORITIES .......................................................................................... ii
REPLY IN SUPPORT OF PETITION FOR A WRIT OF CERTIORARI .................... 1
I.

THIS COURT SHOULD GRANT CERTIORARI TO RESOLVE THE
QUESTION OF WHETHER THE COURT OF CRIMINAL APPEALS FAILED
TO GIVE RETROACTIVE EFFECT TO MOORE V. TEXAS............................ 2

II. THIS COURT CAN REVIEW THE COURT OF CRIMINAL APPEALS’
MISAPPLICATION OF MOORE V. TEXAS TO MR. MILAM’S
INTELLECTUAL DISABILITY CLAIM. .......................................................... 10
CONCLUSION............................................................................................................. 15

i

TABLE OF AUTHORITIES
Cases
Ake v. Oklahoma, 470 U.S. 68 (1985).......................................................................... 11
Bobby v. Bies, 556 U.S. 825 (2009) ................................................................................ 4
Danforth v. Minnesota, 552 U.S. 264 (2008) ................................................................. 4
Ex parte Blue, 230 S.W.3d 151 (Tex. Crim. App. 2007) ............................................. 10
Ex parte Briseno, 135 S.W.3d 1 (Tex. Crim. App. 2004) ................................... 5, 7, 8, 9
Ex parte Moore, 470 S.W.3d 481 (Tex. Crim. App. 2015) ........................................... 13
Montgomery v. Louisiana, 136 S. Ct. 718 (2016) .......................................................... 5
Moore v. Texas, 137 S. Ct. 1039 (2017) ............................................................... passim
Moore v. Texas, 139 S. Ct. 666 (2019) ........................................................... 1, 2, 10, 13
Teague v. Lane, 489 U.S. 288 (1989) ............................................................................. 5
Van Tran v. Colson, 764 F.3d 594 (6th Cir. 2014) ........................................................ 4
Statutes
Tex. Code Crim. Proc. art. 11.071 ......................................................................... 10, 11

ii

REPLY IN SUPPORT OF PETITION FOR A WRIT OF CERTIORARI
In its Brief in Opposition, the State continues to advocate that Mr. Milam’s
intellectual disability claim was appropriately decided using Texas’s stereotype-laden
framework condemned by this Court in Moore v. Texas, 137 S. Ct. 1039 (2017). The
State also asserts that Mr. Milam received the full retroactive benefit of Moore. The
State praises the Texas Court of Criminal Appeals’ findings—findings counsel for the
State in this case drafted in full without any guidance from a court as to the
rationale—as “thorough.” Br. in Opp’n (“Opp’n”) at 23. But these findings neglect to
consider the State’s argument to Mr. Milam’s jury in the penalty phase of his trial
urging them to decide the intellectual disability issue based on evidence and factors
that do not comply with current clinical and constitutional standards. They also omit
any analysis of the substantial evidence of Mr. Milam’s adaptive deficits. The State’s
brief demonstrates either a deep misunderstanding of the constitutional
requirements imposed on courts deciding intellectual disability claims or a blatant
disregard for this Court’s precedent. Because the State drafted the findings of fact
and conclusions of law adopted by the CCA, it is no surprise that the court’s findings
suffer from the same infirmities.
The State argues that Mr. Milam is “unable to present any special or important
reason for certiorari review,” Opp’n at 2, but, as this Court is well aware, Texas’s
handling of intellectual disability claims has required repeated intervention by this
Court. In Moore II,1 this Court had to again reverse the CCA after that court failed

1

Moore v. Texas, 139 S. Ct. 666 (2019).

1

to adequately apply the standards announced by this Court in Moore I,2 which struck
down Texas’s stereotype-laden framework for adjudicating intellectual disability
claims. This Court found reversal was required for a second time because, while the
CCA’s second opinion in Moore contained “sentences here and there suggesting other
modes of analysis consistent with what [this Court] said [in Moore I],” “there are also
sentences here and there suggesting reliance upon what we earlier called lay
stereotypes of the intellectually disabled.” Moore v. Texas, 139 S. Ct. 666, 672 (2019)
(internal quotation marks omitted).
Likewise here, the CCA purported to apply the constitutional standards
announced in Moore I, but upheld an adjudication under Texas’s pre-Moore
framework notwithstanding that the jury was urged to decide the intellectual
disability question based upon lay stereotypes. Thus, the decision in this case
continues to defy this Court’s decisions in Moore I and II. Without this Court’s
intervention, Texas stands poised to execute Mr. Milam without any court having
reliably adjudicated Mr. Milam’s compelling intellectual disability claim under
appropriate standards and free from the application of lay stereotypes. Certiorari
review is warranted.
I.

THIS COURT SHOULD GRANT CERTIORARI TO RESOLVE THE
QUESTION OF WHETHER THE COURT OF CRIMINAL APPEALS
FAILED TO GIVE RETROACTIVE EFFECT TO MOORE V. TEXAS.
Mr. Milam seeks certiorari review of whether the CCA gave full retroactive

effect to Moore when it disposed of his intellectual disability claim without actually

2

Moore v. Texas, 137 S. Ct. 1039 (2017).

2

deciding if Mr. Milam is intellectually disabled under current constitutional
standards. Pet. for Writ of Cert. (“Pet.”) at 25. A threshold question to this inquiry is
whether Moore is a new, substantive rule that applies retroactively to cases on
collateral review—a question this Court has not yet answered. In its Brief in
Opposition, the State argues that this Court need not grant certiorari because it
asserts that Mr. Milam has “already received the relief requested” and that the Texas
Court of Criminal Appeals (“CCA”) “applied Moore I retroactively” to Mr. Milam’s
claim. Opp’n at 11. But the State’s conclusory arguments presume the answer to the
question Mr. Milam posed to this Court: whether Mr. Milam actually received the
benefit of the new rule in light of the state court’s upholding of a pre-rule adjudication
in which the factfinder was urged to apply the very lay stereotypes this Court rejected
in Moore to answer whether Mr. Milam is an intellectually disabled person—or
whether, under the circumstances of this case, Mr. Milam is entitled to adjudication
anew free from the intrusion of the stereotypes rejected by Moore. As noted in his
Petition for Writ of Certiorari, Mr. Milam does not dispute that the CCA purported
to apply this Court’s decision in Moore retroactively. Pet. at 21. Mr. Milam’s argument
is that the CCA’s treatment of his intellectual disability claim was inadequate to
actually give him its full benefit, leaving an adjudication in place that is wholly
unreliable under the Eighth Amendment as interpreted by Moore.
The State presumes that the CCA’s treatment of Mr. Milam’s claim constitutes
retroactive application but offers no authority to support that proposition. Instead,
case law suggests that where there is an intervening change in substantive law, a

3

new adjudication untainted by the former standard is required whenever the prior
adjudication is inadequate to confer the full benefit of the new rule. See, e.g., Bobby
v. Bies, 556 U.S. 825, 836–37 (2009) (state entitled to a “full and fair opportunity to
contest” claim of intellectual disability where intellectual disability constituted
mitigating factor but not categorical bar to death penalty at petitioner’s trial); Van
Tran v. Colson, 764 F.3d 594, 605 (6th Cir. 2014) (where “the constitutional protection
depends on the content of state law that has changed retroactively since the relevant
state court ruled, and the relevant state court ruled unreasonably in light of the
change,” petitioner should be granted a conditional writ of habeas corpus to permit
the state court to re-adjudicate the intellectual disability allegations “under the nowgoverning legal standard”).
That these cases require a new adjudication where the prior adjudication was
subject to a now-impermissible substantive standard is logical. A change in
substantive law will necessarily shape the evidence that is presented, the arguments
that are given, the objections that are made, and the framework under which the
factfinder will decide the question before it. Indeed, as described in detail in Mr.
Milam’s Petition, Texas’s then-standard for adjudicating intellectual disability claims
hobbled Mr. Milam’s trial counsel’s ability to object to arguments and evidence—or
to request limiting instructions for otherwise admissible evidence—that is not proper
to consider for an intellectual disability determination under Moore. Pet. at 27–31.3

The State also argues that “the question of retroactivity is more appropriately decided in the
federal habeas context.” Opp’n at 14. The State bases this argument on the principle that “states are
free to give broader effect to new rules than required by this Court.” Opp’n at 14 (citing Danforth v.
Minnesota, 552 U.S. 264, 277 (2008)). Mr. Milam does not dispute the premise that states may
3

4

Moreover, the State presses an argument that the evidence and argument at
Mr. Milam’s trial that ran afoul of Moore can still permissibly be considered under
certain circumstances when deciding intellectual disability. Opp’n at 23–28. For
example, the State argues that it was permissible for a law enforcement officer to
testify about his opinion of whether Mr. Milam is intellectually disabled because he
was “discussing his impression of a suspect being interviewed for murder.” Opp’n at
25. This exception can be found nowhere in Moore.
The State also argues that testimony from Mr. Milam’s teachers about whether
Mr. Milam appeared to be intellectually disabled was permissible because they were
“educators with knowledge of Mr. Milam’s learning ability.” Id. at 24. But Moore did
not carve out an exception for teachers when striking down the Briseno4 factor
regarding lay witness opinion testimony about whether a petitioner is intellectually
disabled. Moore, 137 S. Ct. at 1051–52 (identifying Briseno factor that asks “[d]id
those who knew the person best during the developmental stage—his family, friends,
teachers, employers, authorities—think he was mentally retarded at that time, and,
if so, act in accordance with that determination” as lay perception of intellectual
disability) (emphasis added).5 This argument is even more suspect when applied to

promulgate broader retroactivity rules than Teague v. Lane, 489 U.S. 288 (1989), requires. However,
the State’s argument that the question of Moore’s retroactivity is better decided in federal habeas
omits any mention of this Court’s decision in Montgomery v. Louisiana, 136 S. Ct. 718, 729 (2016),
which held that “when a new substantive rule of constitutional law controls the outcome of a case, the
Constitution requires state collateral review courts to give retroactive effect to that rule.” Therefore,
if Moore is retroactively applicable, the question of whether the CCA failed to give that decision
retroactive effect in disposing of Mr. Milam’s state habeas application is perfectly appropriate for this
Court to decide in this procedural posture.
4 Ex parte Briseno, 135 S.W.3d 1 (Tex. Crim. App. 2004).
5 The State also argues that its questioning of Mr. Milam’s teachers would be permissible under
today’s standards because the teachers’ “opinions were relevant for purposes of interpreting [Mr.

5

the lay opinion testimony from Mr. Milam’s neighbor and cousin about whether those
witnesses believed Mr. Milam was intellectually disabled. Opp’n at 24. The State
asserts that this testimony was not improper because those witnesses were “involved
in the effort to homeschool Milam.” Id. The State makes this argument without any
citation—to the record or case law—to support the proposition that these lay
witnesses’ experience with homeschooling provides a legitimate exception to the
otherwise impermissible consideration of Briseno evidence.6
Additionally, the State argues that its elicitation of testimony from Mr.
Milam’s former employer that he had never previously heard the words “mental
retardation” associated with Mr. Milam did not violate Moore because it was in
response to defense counsel’s questioning on direct. Opp’n at 24–25. However, that
defense counsel was eliciting opinion testimony from a lay witness about Mr. Milam’s
intellectual functioning further underscores the argument that Texas law at the time
of Mr. Milam’s trial was what governed the framework presented to the jury. And

Milam’s] special education records.” Opp’n at 24. But the teacher’s testimony highlighted by Mr. Milam
in his petition was not referring to his school records. The State elicited testimony from his first grade
teacher about whether she had ever referred Mr. Milam for “mental retardation.” 54 RR 314. She
answered that she did not and when asked why, responded that she “didn’t think he needed it.” Id. at
315. In other words, the State elicited the teacher’s opinion about whether she believed Mr. Milam
was intellectually disabled—testimony that is clearly foreclosed by Moore. See also 51 RR 35 (asking
another of Mr. Milam’s elementary school teachers if she “thought he was [intellectually disabled]”).
6 Moreover, this argument is even more questionable given the limited experience these
witnesses had with homeschooling Mr. Milam. Mr. Milam’s cousin Melynda Keenon testified that she
only worked with Mr. Milam three times. 55 RR 84. Mr. Milam’s neighbor Sarah Hodges testified that
she would give Mr. Milam some projects but she never graded them. 55 RR 98. Hodges also testified
that she gave Mr. Milam work that was below his grade level. Id. at 97. At any rate, it is difficult to
ascertain on what basis either witness had the experience or training to assess Mr. Milam’s
intellectually functioning and render an opinion on whether he was intellectually disabled.
Furthermore, the CCA and State’s reliance on testimony by a childhood friend of Mr. Milam’s that Mr.
Milam was “educationally slow because he was removed from school in fourth grade” further
demonstrates continued adherence to impermissible Briseno evidence. App. 2 ¶ 134; Opp’n at 34 n.13.

6

despite the State’s arguments to the contrary, Opp’n at 25, nothing in Moore permits
a factfinder making an intellectual disability determination under the Eighth
Amendment to consider Briseno factors if presented in rebuttal.
The State’s argument that Mr. Milam offers no authority for the proposition
that the jury charge requiring the jury to consider “all of the evidence at the guilt or
innocence stage and the punishment stage” was prohibited under Moore, Opp’n at 26,
is directly contradicted by Moore. Moore, 137 S. Ct. at 1046 n.6 (“Putting aside any
heinousness or gruesomeness surrounding the capital offense, did the commission of
that offense require forethought, planning, and complex execution of purpose” is
Briseno factor rejected by this Court.). Indeed, the State itself cited Briseno as the
basis for that instruction. 55 RR 285. The State also ignores that it encouraged the
jury to consider the circumstances of the offense in deciding the intellectual disability
special issue. 56 RR 136. Moreover, the State offers no explanation as to how the facts
of the offense are relevant to a determination of whether Mr. Milam is intellectually
disabled under current constitutional standards.
Additionally, the State’s assertions about why its penalty phase closing
arguments encouraging the jury to rely on lay stereotypes do not render Mr. Milam’s
trial adjudication violative of Moore are unsupported by the record. The State argues
that it “neither mentioned nor impermissibly invoked the Briseno factors and did not
rely on impermissible stereotypes. The State invoked the evidence.” Opp’n at 27. But
the Briseno factors rejected unanimously by this Court in Moore were explicitly
“evidentiary factors” which “factfinders in the criminal trial context might also focus

7

upon in weighing evidence” to make an intellectual disability determination. Briseno,
135 S.W.3d at 8. It is hardly surprising, then, that the State “invoked the evidence”
made relevant by Briseno to urge the jury to apply the Briseno factors. The State’s
argument does not avoid problem. It is the problem.
Moreover, the enumerated Briseno factors were not the only aspect of Texas’s
framework that Moore struck down. This Court rejected the Briseno factors because
they “advanced lay perceptions of intellectual disability.” Moore, 137 S. Ct. at 1051.
Because of that, the Briseno factors created “an unacceptable risk that persons with
intellectual disability will be executed.” Id. Consequently, that the State did not
explicitly identify the Briseno factors to Mr. Milam’s jury is immaterial where the
State expressly told the jury that it should rely on the types of lay stereotypes
condemned in Moore. The State’s argument that it “did not rely on impermissible
stereotypes” is patently false. See, e.g., 56 RR 135 (encouraging the jury to reject
prong two because Mr. Milam “had a cell phone” and “had a MySpace account” and
because he “could rap on about, you know, what music he liked”); id. at 136
(encouraging the jury to reject prong two because “He could carry on a conversation,
as you yourself have heard on several and multiple occasions. And he could hang out
with kids of his own age and play with them appropriately.”); id. (encouraging the
jury to reject prong two because “He tended to the Ag. Project animals. He played
board games.”). The State points to no authority that these types of facts are
constitutionally permissible.

8

The State’s attempts to draw a distinction that its stereotype-laden closing
argument did not violate Moore because it “invoked the evidence” fall flat. Opp’n at
27. After Moore, it would be objectionable argument to leverage clinically irrelevant
evidence—whether otherwise admissible at the trial or not—to urge a jury to make
an intellectual disability determination. Moore contemplates no exception to the
jury’s consideration of unconstitutional factors regardless of whether they are
supported by evidence in the record. Indeed, that this type of testimony was in
evidence because of its relevance under Briseno and that the jury was encouraged to
rely on it in deciding whether Mr. Milam is intellectually disabled only further
underscores Mr. Milam’s arguments that his trial was tainted by Texas’s pre-Moore
framework. The CCA’s determination that it was not, and that Mr. Milam received
the benefit of Moore at his trial, was wrong.
Finally, the State’s arguments that there was evidence presented at Mr.
Milam’s trial that would still be permissible today by which the jury could have found
that Mr. Milam is not intellectually disabled miss the point. Moore was concerned
with an “unacceptable risk” that a person with an intellectual disability would be
executed. Mr. Milam does not dispute that at his trial, his jury heard some evidence
that would be permissible for a factfinder to consider under current constitutional
standards. But the critical point is that the jury also heard testimony and argument
that would not be permissible under Moore, and that the defense had no way to
prevent that from happening under the then-governing Briseno framework. Despite
not being able to ascertain the factual basis on which the jury decided the intellectual

9

disability special issue, the CCA upheld Mr. Milam’s death sentence by merely
reviewing the trial record and determining the jury’s verdict could be upheld, even in
light of Moore. As such, Mr. Milam has had no merits adjudication of his intellectual
disability claim by a factfinder based on evidence and argument free from the
influence of an unconstitutional legal standard. See Moore II, 139 S. Ct. at 672 (“We
conclude that the appeals court’s opinion, when taken as a whole and when read in
the light both of our prior opinion and the trial court record, rests upon analysis too
much of which too closely resembles what we previously found improper.”). If Moore
is retroactive, he is entitled to such an adjudication.
II.

THIS COURT CAN REVIEW THE COURT OF CRIMINAL APPEALS’
MISAPPLICATION OF MOORE V. TEXAS TO MR. MILAM’S
INTELLECTUAL DISABILITY CLAIM.
In its Brief in Opposition, the State argues that this Court lacks jurisdiction to

review Mr. Milam’s allegation that the CCA misapplied Moore when it rejected Mr.
Milam’s claim under Article 11.071 § 5(a)(3) of the Texas Code of Criminal
Procedure.7 Opp’n at 28–31. This argument likewise lacks merit because the CCA’s
determination that Mr. Milam failed to meet the dictates of Article 11.071 § 5(a)(3)8

In his Petition, Mr. Milam also asserted under this reason for granting the writ that the CCA
similarly misapplied Moore in determining that his trial was not affected by Texas’s pre–Moore
intellectual disability framework. Pet. at 37. However, the State only addressed Mr. Milam’s
arguments relating to Section 5(a)(3). Opp’n at 31–36. Consequently, those are the only arguments
addressed here.
8 The State also argues that the CCA found that Mr. Milam “could not demonstrate the
unavailability of an Atkins claim in his first state habeas application” in declining to authorize his
intellectual disability claim under Section 5(a)(3). Opp’n at 12. There is no requirement in Texas law
that authorization under Section 5(a)(3) requires a showing of prior unavailability. Indeed, the CCA
has held the opposite—that Section 5(a)(3) provides a mechanism for petitioners who could have
previously raised an intellectual disability claim (or other innocence-of-the-death-penalty claim) but
failed to do so to have that claim reviewed in a subsequent application. See Ex parte Blue, 230 S.W.3d
151, 159–60 (Tex. Crim. App. 2007) (in enacting Section 5(a)(3) “[t]he Legislature quite obviously
7

10

of the Texas Code of Criminal Procedure is not independent of the federal
constitutional question.
This Court has held that where a state procedural rule “depends on a federal
constitutional ruling, the state-law prong of the court’s holding is not independent of
federal law, and our jurisdiction is not precluded.” Ake v. Oklahoma, 470 U.S. 68, 75
(1985). The CCA’s conclusions here rejected Mr. Milam’s challenge under Section
5(a)(3) because the court found that Mr. Milam could not meet the pleading burden
to establish an Eighth Amendment violation. Inherent in that analysis is an
assessment of Mr. Milam’s claim that his execution would violate the Eighth
Amendment because he is intellectually disabled.9 Thus, although the ruling is
procedural—that is, all the CCA decided was whether Mr. Milam met his pleading
burden necessary to obtain merits review of his claim—that ruling was nevertheless
intertwined with federal law. The Court clearly has jurisdiction to correct any
misapplication of substantive Eighth Amendment law by a state court.
The State also again argues incorrectly that the CCA did not misapply Moore
in rejecting Mr. Milam’s claim under Section 5(a)(3). See Opp’n at 31. First, the State’s

intended this provision, at least in some measure, to mimic the federal doctrine of ‘fundamental
miscarriage of justice,’” which “operates to excuse procedural default”).
9 See App. 2 ¶ 227 (“The Court concludes that, even if considered in light of Moore I, Moore II,
and Hall, Applicant’s evidence fails to demonstrate clear and convincing evidence that no rational
factfinder would fail to find him intellectually disabled.”); id. ¶ 230 (“The Court concludes that
sufficient evidence exists to support the jury’s determination that Applicant failed to demonstrate
intellectual disability by showing (1) deficits in general mental abilities; (2) impairment in adaptive
functioning; and (3) onset during the developmental period.”); id. ¶ 237 (“The Court concludes that
Applicant’s new evidence is not compelling, nor does it ‘dramatically undermine the previously
considered substantial evidence that support[ed] a finding that applicant [was] not [intellectually
disabled]” and “a rational finder of fact could still find that applicant [was] not [intellectually
disabled].”); id. ¶ 238 (“The Court concludes that Applicant is not ‘so impaired as to fall within the
range of [intellectually disabled] offenders about whom there is a national consensus’ against
execution.” (quoting Atkins, 536 U.S. at 317)).

11

attempt to elide the CCA’s misapplication of Moore by claiming the issue was only of
competing credibility lacks merit. The State claims that the CCA is “permitted to find
one expert more credible than another,” Opp’n at 33, and that therefore the CCA did
not err in relying on the testimony of the State’s trial expert Dr. Timothy Proctor in
finding that Mr. Milam had not met his burden of pleading that he had substantial
impairments in intellectual functioning. Opp’n at 32–33. However, a credibility
assessment is not what is at issue here. It is that the CCA’s reasoning for its finding
that Mr. Milam did not meet his pleading burden of establishing significantly
subaverage intellectually functioning runs afoul of Moore.
Unlike in Moore, the CCA did not remove Mr. Milam’s qualifying IQ scores
from its consideration altogether because of unreliability. The SEM of Mr. Milam’s
WAIS scores—a 68 and a 71—place him in the qualifying range for an intellectual
disability diagnosis. Therefore, the CCA had to “move on” to consider Mr. Milam’s
adaptive functioning. Moore, 137 S. Ct. at 1049. Instead, the court relied on expert
testimony that “a lack of education” and “anxiety, depression, emotional upset, and
drug abuse could impact testing.” App. 2 ¶ 125. The court relied on that expert’s
testimony that “given the SEM,” Mr. Milam’s intellectual functioning was in “the
borderline range” and that consequently Mr. Milam failed to meet his burden under
prong one. Id. But these are exactly the type of considerations that this Court rejected
in Moore when it held that “the presence of other sources of imprecision in
administering the test to a particular individual . . . cannot narrow the test-specific
standard-error range.” Moore, 137 S. Ct. at 1049. That is precisely the import of the

12

CCA’s findings here. Finding that Mr. Milam was “in the borderline range” “given the
SEM” is merely another way of the court finding that Mr. Milam’s “true” IQ is in the
higher range of the SEM of his 68 and 71 scores, and discounting the lower end of
those qualifying IQ scores on that basis.10
Second, the State is also incorrect that “the CCA did not rely on perceived
strengths in evaluating adaptive functioning.” Opp’n at 33. The State claims that
“[t]he findings Milam cites in support of his argument are not a recitation of Milam’s
strengths, but the record evidence relied upon by Dr. Proctor, and cited by the court,
to discredit Dr. Cunningham’s findings of adaptive deficits.” Id. Yet, the CCA entirely
omitted any analysis of the evidence and evidentiary proffers of adaptive deficits that
were before it, running afoul of this Court’s instructions in Moore. See Moore II, 139
S. Ct. at 670 (criticizing CCA’s opinion because it “again relied less upon the adaptive
deficits to which the trial court had referred than upon Moore’s apparent adaptive
strengths” and its “discussion of Moore’s communication skills does not discuss the

That the CCA relied on expert testimony to make this finding does not distinguish Mr.
Milam’s case from Moore. In Ex parte Moore, the CCA’s conclusions rejected by this Court were also
based on expert opinions at Mr. Moore’s state habeas hearing. See Ex parte Moore, 470 S.W.3d 481,
517 (Tex. Crim. App. 2015) (expert “acknowledged that factors unrelated to a person’s actual mental
ability can lower test scores, including depression, psychosis, and external motivations to obtain a
lower score, such as facing the death penalty”); id. (expert testified that “childhood trauma can cause
low IQ scores because the stressful environment makes it difficult for the child to get enough rest,
focus, and learn”); id. (expert testified that “many inmates are depressed and that depression can lower
IQ scores” and that Moore had “exhibited withdrawn and depressive behavior throughout his time on
death row, and he demonstrated similar behavior earlier in his life”); id. at 519 (CCA concluding “by
the time he took the WAIS–R, applicant had a history of academic failure, something that his own
expert stated could adversely affect effort. Applicant also took the WAIS–R under adverse
circumstances; he was on death row and facing the prospect of execution, and he had exhibited
withdrawn and depressive behavior. These considerations might tend to place his actual IQ in a
somewhat higher portion of that 69 to 79 range.”); compare Moore, 137 S. Ct. at 1049 (rejecting
argument that “CCA properly considered factors unique to Moore in disregarding the lower end of the
standard-error range”).
10

13

evidence relied upon by the trial court”) (emphasis in original) (internal quotation
marks and alterations omitted).
For example, Mr. Milam presented evidence to the CCA that: an expert
retained by the State before trial opined that Mr. Milam “has serious limitations in
his ability to read and write” and that he “has very simplistic ideas, is very naïve,
extremely gullible, easily led . . . .” Ex. 1, Gripon Report at 3; Mr. Milam did not know
how to use a debit card and “would give the people, whom he knew, his PIN number
and they would actually operate the machine for him” id. at 9; an elementary school
teacher reported that Mr. Milam’s “intellectual functioning was the lowest in the
class,” McIlhenny Aff. ¶ 3; former employers reported that “[w]hen I showed Blaine
how to something [like using a tape measure], he would not remember how to do it
the next time, and I had to show him again,” Bennet Aff. ¶ 5, and “Blaine could not
complete a task as instructed,” Wallace Aff. ¶ 5; and that Mr. Milam never lived
independently. 50 RR 8, 33. Nowhere in the CCA’s findings of fact and conclusion of
law does the court grapple with these evidentiary proffers of adaptive deficits
submitted in support of the allegations of intellectual disability. Instead, the findings
rely on Mr. Milam’s perceived strengths. This is inconsistent with this Court’s
decision in Moore. Moore I, 137 S. Ct. at 1050.11

The State also argues that “Milam undermines his own argument that the CCA continues
to misapply the princip[le]s of Moore I by also complaining that the CCA has, post-Moore I, reexamined
and granted relief in other cases . . . but is treating him differently . . . .” Opp’n at 35. Mr. Milam
pointed out the procedural disparities between how Mr. Milam’s claim was treated versus other state
habeas applicants in similar procedural postures to support his argument that the CCA did not give
Moore full, retroactive effect as applied to Mr. Milam. That the CCA has granted relief in other cases
does not in any way establish that the CCA applied this Court’s precedent correctly here. This Court
need look no further than the State-authored Findings of Fact and Conclusions of Law adopted by the
CCA in Mr. Milam’s case to make that determination. Moreover, the procedural differences between
11

14

